No. 19-351
IN THE

Supreme Court of the @lniteb States
FEDERAL REPUBLIC OF GERMANY, ET AL.,

Petitioners,
V.

ALAN PHILIPP, ET AL.,

Respondents.
On Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

CERTIFICATE OF COMPLIANCE
As required by Rule 33.1(h), I, D. Hunter Smith, a member of the Bar of this
Court, hereby certify that the Brief of Peter Toren as Amicus Curiae in Support of
Respondents contains 7,509 words, excluding the parts of the brief that are exempted
by Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

October 29, 2020

D. Hunter Smith

